CERTIFICATE OF COMPLIANCE

Case No.
Caption: Rose v. City of Utica, et al.

As required by Supreme Court Rule 33.1(h),
I certify that the document contains 4,981 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the fore-
going is true and correct.

Executed on December 24, 2019

Loon

Anne Lamb
Record Press, Inc.

Sworn to before me on

December 24, 2019

ALESSANDRA KANE
Notary Public, State of New York
No, 01KA6340521
Qualified in Richmond C:
Commission Expfres April

      

Notary Public
